Department of Homeland Security
   Ofﬁce of Inspector General

            The State of Texas’ Management of State 
 

             Homeland Security Program and Urban 
 

                Areas Security Initiative Grants 
 

                 Awarded During Fiscal Years 
 

                       2006 through 2008 
 





OIG-11-44                                         February 2011
                                                         Office ofInspector General

                                                         U.S. Department of Homeland Security
                                                         Washington, DC 20528




                                                        Homeland
                                                        Security
                                   FEB 11 2011


                                     Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

The attached report presents the results of the audit of the State ofTexas' management of
State Homeland Security Program and Urban Areas Security Initiative grants awarded
during Fiscal Years 2006 through 2008. We contracted with the independent public
accounting firm Foxx & Company to perform the audit. The contract required that Foxx
& Company perform its audit according to generally accepted government auditing
standards. Foxx & Company's report identifies seven reportable conditions where State
management of the grant funds could be improved, resulting in 14 recommendations
addressed to the Assistant Administrator, Grant Programs Directorate, Federal
Emergency Management Agency. Foxx & ~ompany also identified two best practices
that should be considered for use by other jurisdictions. Foxx & Company is responsible
for the attached auditor's report dated January 26, 2011, and the conclusions expressed in
the report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation ofthis report.

                                     ~i~
                                     Anne L. Richards
                                     Assistant Inspector General for Audits
January 26, 2011

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W. Building 410
Washington, D.C. 20528

Dear Ms. Richards:

Foxx & Company performed an audit of the State of Texas’ management of the
Department of Homeland Security’s State Homeland Security Program and Urban Areas
Security Initiative grants for Fiscal Years 2006 through 2008. The audit was performed
in accordance with our Task Order No. TPD-FIG-BPA-07-0007-0004 dated
September 29, 2009. This report presents the results of the audit and includes
recommendations to help improve the State’s management of the audited State Homeland
Security Program and Urban Areas Security Initiative grants.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2007 revision. The audit was a performance audit as defined by Chapter 1 of the
Standards and included a review and report on program activities with a compliance
element. Although the audit report comments on costs claimed by the State, we did not
perform a financial audit, the purpose of which would be to render an opinion on the
State of Texas’ financial statements or the funds claimed in the Financial Status Reports
submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely,

Foxx & Company



Martin W. O’Neill
Partner
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1 
 


Background ....................................................................................................................... 2
 


Results of Audit ................................................................................................................ 7
 


           Setting Goals and Objectives and Measuring Improvements ............................... 7 
 

           Recommendations ................................................................................................. 9 
 

           Management Comments and Auditors’ Analysis ................................................. 9 
 


           Monitoring Subgrantee Activities ....................................................................... 10 
 

           Recommendation ................................................................................................ 14 
 

           Management Comments and Auditors’ Analysis ............................................... 15 
 


           Timely Expenditure of Grant Funds ................................................................... 16 
 

           Recommendation ................................................................................................ 18 
 

           Management Comments and Auditors’ Analysis ............................................... 18 
 


           Statewide Strategy for Special Response Teams ................................................ 19 
 

           Recommendations ............................................................................................... 21 
 

           Management Comments and Auditors’ Analysis ............................................... 22 
 


           State Agency Project Selection and Tracking ..................................................... 23 
 

           Recommendations ............................................................................................... 25 
 

           Management Comments and Auditors’ Analysis ............................................... 25 
 


           Councils of Government Allocations .................................................................. 26 
 

           Recommendation ................................................................................................ 27 
 

           Management Comments and Auditors’ Analysis ............................................... 28 
 


           Inventory Control Requirements ......................................................................... 28 
 

           Recommendations ............................................................................................... 30 
 

           Management Comments and Auditors’ Analysis ............................................... 30 
 


           Two Texas Subgrantees Developed Systems That May Be Best Practices ........ 31 
 


     Appendices
           Appendix A:           Purpose, Scope, and Methodology...............................................                 32 
 

           Appendix B:           FEMA Management Comments to the Draft Report ...................                               35 
 

           Appendix C:           State of Texas Management Comments to the Draft Report .......                                 41 
 

           Appendix D.           Organization Chart .......................................................................     46 
 

           Appendix E:           Report Distribution ......................................................................     47 
 

Table of Contents/Abbreviations
  Abbreviations
    DHS           Department of Homeland Security
    FEMA          Federal Emergency Management Agency
    FY            Fiscal Year
    OIG           Office of Inspector General
OIG 
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                      Foxx & Company completed an audit of the State of Texas’
                      Management of State Homeland Security Program and Urban
                      Areas Security Initiative grants awarded during Fiscal Years 2006
                      through 2008. The audit objectives were to determine whether the
                      State distributed and spent Homeland Security Grant Program
                      funds strategically, effectively, and in compliance with federal
                      laws, regulations, and guidance. The audit included a review of
                      approximately $291 million in State Homeland Security Program
                      and Urban Areas Security Initiative grants awarded to the State of
                      Texas.

                      Generally, the State did an efficient and effective job of
                      administering program requirements in accordance with grant
                      guidance, regulations, and laws. The State’s plans linked funding
                      to all-hazard capabilities and to goals that were established based
                      on risk assessments. We identified two best practices that should
                      be considered for sharing with other jurisdictions.

                      However, some improvements are needed in the State’s
                      establishment of measurable goals and objectives, monitoring
                      subgrantee activities, timeliness of expenditures, overseeing
                      special response teams, reviewing and approving State Agency
                      projects, allocating funds by Councils of Government, and
                      complying with inventory requirements.

                      Our 14 recommendations call for the Federal Emergency
                      Management Agency to require the State of Texas to initiate
                      improvements which, if implemented, should help strengthen
                      program management, performance, and oversight. Federal
                      Emergency Management Agency officials and Texas State
                      officials concurred with all of the recommendations. These
                      officials’ written comments are included in the report as
                      Appendix B and Appendix C, respectively.




             The State of Texas’ Management of State Homeland Security Program and 
 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                              Page 1
 
 

Background
                    The Homeland Security Grant Program is a federal assistance grant
                    program administered by the U.S. Department of Homeland
                    Security (DHS) Grant Programs Directorate within the Federal
                    Emergency Management Agency (FEMA). The current Grant
                    Programs Directorate, hereafter referred to as FEMA, began with
                    the Office of Domestic Preparedness, which was transferred from
                    the Department of Justice to DHS in March 2003. The Office of
                    Domestic Preparedness was subsequently consolidated into the
                    Office of State and Local Government Coordination and
                    Preparedness which, in part, became the Office of Grants and
                    Training, and which subsequently became part of FEMA.

                    Although the grant program was transferred to DHS, applicable
                    Department of Justice grant regulations and legacy systems still
                    were used as needed to administer the program. For example,
                    through Fiscal Year (FY) 2008 the Office of Justice Programs’
                    Grants Management System was used to receive grantee
                    applications and to administer the award and reporting processes.
                    Also, prior to the transfer, the State Administrative Agency entered
                    payment data into the Office of Justice Programs’ Phone Activated
                    Paperless Request System, which was a drawdown payment
                    system for grant funds. That payment system was replaced in
                    April 2007 by FEMA’s Payment and Reporting System, which
                    allows grantees to make payment requests and complete and
                    transmit their quarterly Financial Status Reports online.

                    Homeland Security Grant Program

                    The Homeland Security Grant Program provides federal funding to
                    help state and local agencies enhance their capabilities to prevent,
                    deter, respond to, and recover from terrorist attacks, major
                    disasters, and other emergencies. The Homeland Security Grant
                    Program encompasses several interrelated federal grant programs
                    that together fund a range of preparedness activities, including
                    planning, organization, equipment purchase, training, and
                    exercises, as well as management and administration costs.
                    Depending on the fiscal year, the program included some or all of
                    the following programs:

                    •	 State Homeland Security Program supports the
                       implementation of State Homeland Security Strategies to
                       address the identified planning, organization, equipment,
                       training, and exercise needs to prevent, protect against, respond

           The State of Texas’ Management of State Homeland Security Program and 
 

     Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                            Page 2
 
 

                    to, and recover from acts of terrorism and other catastrophic
                    events.

               •	 Urban Areas Security Initiative Program funds address the
                  unique planning, organization, equipment, training, and
                  exercise needs of high-threat, high-density Urban Areas, and
                  assists them in building an enhanced and sustainable capacity
                  to prevent, protect against, respond to, and recover from acts of
                  terrorism.

               •	 Law Enforcement Terrorism Prevention Program provides
                  resources to law enforcement and public safety communities
                  (working with their private partners) to support critical
                  terrorism prevention activities, including: establishing /
                  enhancing fusion centers and collaborating with non-law
                  enforcement partners, other government agencies, and the
                  private sector.

               •	 Citizen Corps Program mission is to bring community and
                  government leaders together to coordinate the involvement of
                  community members in emergency preparedness, planning,
                  mitigation, response, and recovery.

               •	 Metropolitan Medical Response System Program funds
                  support designated jurisdictions to further enhance and sustain
                  a regionally integrated, systematic mass casualty incident
                  preparedness program that enables a response during the first
                  crucial hours of an incident. The program prepares
                  jurisdictions for response to all-hazards mass casualty
                  incidents, including chemical, biological, radiological, nuclear,
                  and explosive terrorism, epidemic disease outbreaks, natural
                  disasters, and large-scale hazardous material incidents.

               State Administrative Agency

               The governors of each state appoint a State Administrative Agency
               to administer the Homeland Security Grant Program. The State
               Administrative Agency is responsible for managing the grant
               programs in accordance with established federal guidelines. The
               State Administrative Agency is also responsible for allocating
               funds to local, regional, and other state government agencies.

               In January 2004, the Texas Seventy-eighth Legislature created the
               Governor’s Office of Homeland Security. This office coordinates
               the Homeland Security Council and prepares the Texas Homeland

      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 3

               Security Strategic Plan. The Homeland Security Council has
               responsibility for statewide planning, coordination, and
               communication for homeland security preparedness. It is the
               decision making body for the Texas Strategic Plan.

               The Governor’s Office, through the State Director of Homeland
               Security, directs policy for the Homeland Security Grant Program
               in Texas. The Department of Public Safety is the State
               Administrative Agency appointed by the governor in 2005 to
               manage and monitor Homeland Security Grant Program funds for
               state and local entities.

               The Texas Division of Emergency Management, which is under
               the Texas Department of Public Safety, makes recommendations
               regarding the distribution of federal homeland security funds,
               administers applications for local and state entities applying for
               federal homeland security-related grant funds, audits and tracks
               homeland security funds, and coordinates implementation of the
               State’s Homeland Security Strategic Plan. The State
               Administrative Agency administers the Homeland Security Grant
               Program for the Texas Division of Emergency Management. The
               Texas Department of Public Safety’s organizational structure is
               included as Appendix D.

               The State of Texas has 254 counties, 1,205 cities, and 3 Native
               American tribes. When the first homeland security grant program
               began, the Governor’s Office considered it infeasible for the State
               Administrative Agency to be knowledgeable of the needs of more
               than 1,400 jurisdictions, and to manage homeland security grants
               for such a large number of jurisdictions. The Governor’s Office
               mandated that homeland security needs be evaluated and grants
               awarded on a regional basis using the existing structure of 24 state
               Councils of Government planning regions, which were already
               charged with carrying out a wide variety of regional programs.
               The Councils of Government are governed by representatives of
               cities and counties in each region.

               Proposed homeland security projects developed by cities, counties,
               and other eligible entities, and proposed regional projects, were
               submitted to Councils of Government planning regions for review,
               evaluation, and ranking. Each region had a committee primarily
               comprised of emergency responders and local officials to
               accomplish these tasks. Project proposals approved at the regional
               level were provided to the State Administrative Agency, where the
               projects were aggregated by emergency function. That

      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 4

               information was used to develop individual initiatives and related
               investment justifications to be funded by homeland security grants.

               Texas State agency subgrantees were to follow a different process,
               which called for submitting project proposals to the State
               homeland security staff for review. Proposed projects could be
               approved for full or partial funding by the Director and/or
               Assistant Director of Homeland Security. State agencies were
               required to meet all Federal grant requirements.

               The State of Texas also had five Urban Areas Security Initiative
               areas: Austin, Arlington-Dallas-Fort Worth, El Paso, Houston, and
               San Antonio. Each Urban Areas Security Initiative jurisdiction
               had groups for planning, strategy development, identifying needs,
               and preparing investment justifications.

               Grant Funding

               FEMA awarded the State of Texas approximately $354 million in
               Homeland Security Grant Program funds during FYs 2006 through
               2008. As part of this program, the State received $291 million in
               State Homeland Security Program and Urban Areas Security
               Initiative grants. During that timeframe, the State Administrative
               Agency awarded funds to the following subgrantees which
               included counties, cities, State agencies, urban areas, and a Native
               American tribe:

               •	 2006: 233 subgrantees comprised of 24 Councils of
                  Government, 103 counties, 100 cities, 1 State agency,
                  1 Native American tribe, 1 airport, and 3 urban areas;

               •	 2007: 182 subgrantees comprised of 24 Councils of
                  Government, 80 counties, 66 cities, 6 State agencies,
                  1 Native American tribe, 1 organization, and 4 urban areas; and

               •	 2008: 233 subgrantees comprised of 24 Councils of
                  Government, 94 counties, 99 cities, 9 State agencies, 1 Native
                  American tribe, 1 airport, and 5 urban areas.

               Table 1 displays a breakdown of the State Homeland Security
               Program and Urban Areas Security Initiative grant funds by year.
               Some urban areas did not receive grant funds during each of the
               fiscal years.



      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 5

                                                 Table 1
                              Homeland Security Grant Program Awards
                                      FYs 2006 through 2008

                   Funded
                                   FY 2006         FY 2007         FY 2008           Total
                   Activity
                 State
                 Homeland
                                 $26,140,000     $34,400,000     $65,440,000     $125,980,000
                 Security
                 Program
                 Urban Areas
                 Security        $34,960,000     $58,540,000     $71,857,000     $165,357,000
                 Initiative
                 Law
                 Enforcement
                                                                    Not
                 Terrorism       $24,740,000     $24,560,000                     $49,300,000
                                                                  Applicable
                 Prevention
                 Program
                 Citizen
                 Corps           $1,020,000      $773,000        $798,000        $2,591,000
                 Program
                 Metropolitan
                 Medical
                 Response        $3,020,000      $3,356,000      $4,176,000      $10,552,000
                 System
                 Program
                     Total       $89,880,000     $121,629,000    $142,271,000    $353,780,000

               Foxx & Company completed an audit of the State of Texas’
               management of DHS’ State Homeland Security Program and
               Urban Areas Security Initiative grants awarded during FYs 2006
               through 2008. The objectives of the audit were to determine
               whether the State distributed and spent Homeland Security Grant
               Program funds strategically, effectively, and in compliance with
               federal laws, regulations, and guidance. Nine researchable
               questions provided by the DHS Office of Inspector General (OIG)
               established the framework for the audit. The researchable
               questions were related to the State Administrative Agency’s
               planning, management, and evaluations of grant activities.
               Appendix A provides additional details on the Purpose, Scope, and
               Methodology of this audit, including the nine researchable
               questions.




      The State of Texas’ Management of State Homeland Security Program and 
 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                       Page 6

Results of Audit

     State Grants Management Practices Were Generally Effective,
     But Require Some Improvements
            Generally, the State did an efficient and effective job of administering
            program requirements in accordance with laws, grant guidance and
            regulations. The State’s plans linked funding to all-hazard capabilities and
            to goals that were established based on risk assessments. We identified
            two best practices that should be considered for sharing with other states.

            However, improvements were needed to enhance Texas’ management of
            the grants including:

                 •   Setting goals and objectives and measuring improvements,
                 •   Monitoring of subgrantee activities,
                 •   Timeliness of grant fund expenditures,
                 •   Statewide strategy for special response teams,
                 •   Review and approval process for State Agency projects,
                 •   Allocation of grant funds by Councils of Government, and
                 •   Compliance with federal inventory requirements.

            We have provided 14 recommendations, which if implemented, should
            enhance the effectiveness of the State’s grants management and overall
            use of grant funds to improve preparedness and response capabilities.

     Setting Goals and Objectives and Measuring Improvements
            The State’s strategic plan did not contain adequately defined goals and
            objectives to use in measuring performance. As a result, the State did not
            have an adequate basis for measuring improvements in the State’s
            preparedness and response capabilities.

            Code of Federal Regulations Title 44 § 13.40, Monitoring and reporting
            program performance, requires that grantees monitor grant and subgrant
            supported activities to assure that program goals are being achieved.
            Department of Homeland Security State and Urban Area Homeland
            Security Strategy Guidance on Aligning Strategies with the National
            Preparedness Goal, dated July 22, 2005, states that an objective sets a
            tangible and measurable target level of performance over time against
            which actual achievement can be compared, including a goal expressed as
            a quantitative standard, value or rate. Therefore, an objective should be:



            The State of Texas’ Management of State Homeland Security Program and 
 

      Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                             Page 7
 
 

           •	 Specific, detailed, particular, and focused — helping to identify
              what is to be achieved and accomplished;
           •	 Measurable — quantifiable, providing a standard for comparison,
              and identifying a specific achievable result;
           •	 Achievable — the objective is not beyond a State, region, 
 

              jurisdiction, or locality’s ability; 
 

           •	 Results-oriented — identifies a specific outcome; and
           •	 Time-limited — a target date exists to identify when the objective
              will be achieved.

      The goals and objectives in the State’s Strategic Plan were not consistent
      with federal requirements. The State’s goals and objectives were broad-
      based and did not provide for tracking and impartially measuring the
      impact of funds expended for equipment, training, and exercises. For
      example, one of the State’s objectives was to reduce vulnerability to man-
      made and natural threats to the agriculture industry. Examples of two
      priority actions that are not measurable for this objective were:
      (1) amplify statewide pest, pesticide, agricultural disease, and food
      contamination monitoring capabilities, and (2) ensure sufficient
      laboratories and specialized facilities are available to analyze pest and
      disease samples.

      State officials said that measurable goals and objectives as part of the
      State’s strategic planning process are difficult to develop. Without
      adequate measurable goals and objectives, the State did not have a
      sufficient basis to evaluate the effect of grant expenditures on its
      preparedness and response capabilities. Also, the State was unable to
      adequately determine progress toward goals and objectives in future
      funding and management decisions.

      Because the State did not have a performance measurement mechanism to
      identify improved capabilities, it periodically performed surveys
      requesting jurisdictions to rate their progress toward achieving Department
      of Homeland Security’s target capabilities. However, the survey
      information received is technically flawed because these surveys were
      based on the subjective judgment of local jurisdiction officials. To further
      exacerbate the quality of the survey information, jurisdiction officials said
      that they did not want to report “no progress” on a capability because it
      would appear they were doing nothing, or that the capability was “fully
      achieved.” The officials were concerned that they would not receive
      additional funding for “fully achieved” capabilities.




      The State of Texas’ Management of State Homeland Security Program and 
 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                       Page 8
 

      Recommendations:
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the Texas Department of Public
               Safety to:

               Recommendation #1: Develop strategic goals and objectives
               applicable to jurisdictions and first responder capabilities that are
               specific, measurable, achievable, results-oriented, and time limited.

               Recommendation #2: Incorporate the goals and objectives into a
               statewide system for measuring first responder, local jurisdiction,
               Councils of Government, Urban Area, and State agency progress
               toward achieving the goals and objectives.
               Recommendation #3: Include the progress achieved during the
               decision making process for preparing applications and
               determining allocations of future grant funds.

      Management Comments and Auditors’ Analysis
               FEMA concurred with recommendation #1. FEMA said that the
               State’s revised Homeland Security Strategy, approved in January
               2010, has goals and objectives that are specific, measurable,
               achievable, results-oriented, and time limited. Based on the
               revised strategy, FEMA concluded that the recommendation had
               been sufficiently addressed.

               With respect to recommendation #2, FEMA said that while it may
               not legally “require” the grantee to use (or create) a “statewide
               system,” it encourages grantees to measure the progress of their
               capabilities as part of the State Homeland Security Grant Program
               and the Urban Areas Security Initiatives awards.

               FEMA concurred with the third recommendation. FEMA said it
               recognizes that the State is making an effort to achieve this
               recommendation already, and is satisfied with the State’s progress
               as demonstrated through the 2009 and 2010 fiscal year grant
               processes.

               The State concurred with the findings and recommendations. The
               State said it is waiting for FEMA's response to Congressman
               Cuellar's HR 398 -- the Redundancy Elimination & Enhanced
               Performance for Preparedness Act, recently signed into law by the
               President, and it looks forward to incorporating the resulting

      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 9

                proposed measures within a reasonable timeframe into its future
                homeland security planning and grants management processes.

                The State said that in the meantime, Texas will rely on:

                •	 The outcome goals inherent in the 37 capabilities of the Target
                   Capabilities List,
                •	 The Texas risk-based assessment framework currently being
                   developed, and
                •	 The homeland security goals, objectives, priority actions,
                   milestones, and measures already established in the Texas
                   Homeland Security Strategic Plan for 2010-2015, the Texas
                   Department of Public Safety Strategic Plan for 2010-2015, and
                   investment justifications of the Councils of Government, Urban
                   Areas Security Initiatives, and State agencies.

                The State said that the items cited above, along with the results
                reflected in reports of the State’s on-site monitors and various
                after-action reviews, will assist with future grant funding decisions.

                The FEMA and State responses include positive steps for
                implementing the recommendations. Within 90 days, the Assistant
                Administrator, Grant Programs Directorate, needs to outline
                specific corrective actions with supporting documentation for
                implementation of the recommendations, and a plan to ensure that
                the State’s implementation of its proposed corrective actions
                proceed as intended.

Monitoring Subgrantee Activities
       The State did not monitor the subgrantees’ performance to ensure that the
       subgrantees were adequately performing their responsibilities toward
       enhancing terrorism prevention, response, recovery, and mitigation
       capabilities. The State’s monitoring of subgrantees did not focus on
       program performance, but instead, focused primarily on financial and
       fiscal compliance-type issues. The State generally had reasonable
       assurance that fiscal and compliance requirements were met. However,
       the monitoring did not evaluate whether the State’s capability to prevent,
       respond to, recover from, and mitigate the effects of terrorist attacks and
       other catastrophic events was being enhanced. The monitoring did not
       provide specific assurance that subgrantees (i.e., State agencies, regional
       Councils of Government, Urban Areas Security Initiative recipients, and
       local jurisdictions) were adequately performing their responsibilities
       toward enhancing terrorism prevention, response, recovery, and mitigation
       capabilities.

       The State of Texas’ Management of State Homeland Security Program and 
 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                        Page 10

      Code of Federal Regulations Title 44 § 13.40, Monitoring and reporting
      program performance, establishes requirements for monitoring grant
      program performance. The regulations require grantees to (1) provide
      day-to-day management of all grant and subgrant supported activities and
      (2) assure that subgrantees comply with applicable federal requirements
      and achieve program performance goals. The regulations also specify that
      the grantees’ monitoring programs must cover each program, function, or
      activity, and require subgrantees to adhere to the same performance
      monitoring and reporting standards as required of grantees.

      Office of Management and Budget Circular A-133, Compliance
      Supplement, Part 3-M states that grantees are responsible for monitoring
      subgrantee use of federal awards through reporting, site visits, regular
      contact, or other means. Grantee monitoring should provide reasonable
      assurance that the subgrantee administers federal awards in compliance
      with laws and regulations, as well as the provisions of contracts or grant
      agreements. Monitoring should also identify whether performance goals
      are achieved.

               Current Monitoring Activities

               The State’s monitoring activity was not designed to monitor
               subgrantee performance of their responsibilities toward enhancing
               terrorism prevention, response, recovery, and mitigation
               capabilities. The State’s major subgrantee monitoring activities
               included (1) tracking grant-funded projects and activities via a
               comprehensive automated system called the “State Preparedness
               Assessment and Reporting Service” and (2) making site visits to
               selected subgrantees. Neither of these activities was designed to
               monitor subgrantee program performance.

               Under the State’s automated assessment and reporting system,
               subgrantees must enter and update information on each funded
               project from its beginning through its completion or termination.
               The project data tracked with this system consisted of basic
               financial data only, i.e., the amount of grant funds allocated to the
               project, the amount expended to date, and the balance remaining
               unspent.

               The State’s on-site monitoring program lacks effective subgrantee
               performance monitoring because the State has not dedicated the
               necessary resources to monitor the subgrantees’ performance. The
               State Compliance and Audit Section (within the State
               Administrative Agency) is responsible for monitoring visits to
               regional Councils of Government, Urban Areas Security Initiative

      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 11

               areas, and local subgrantees (counties, cities, villages, and others).
               The Compliance and Audit Section had a staff of five monitors.
               During the 4-year period from 2006–2009, the staff visited 245
               sites or an average of 61 subgrantees a year. The guidelines for
               these visits focused on numerous compliance and fiscal issues and
               put little or no emphasis on program performance issues.

               Each subgrantee was responsible for taking certain actions to plan
               or implement grant-funded projects that are designed to enhance
               prevention of, response to, recovery from, or mitigating the results
               of, terrorist attacks or other catastrophic events. The performance
               responsibilities of the Councils of Government, Urban Areas
               Security Initiatives, and local subgrantee were included in annual
               implementation plans, investment justifications, project
               descriptions, or award agreements. For example, the 24 regional
               Councils of Government were allocated a total of about
               $23 million from the FY 2006 through FY 2008 State Homeland
               Security Program for planning and related services. The 24
               Councils were also allocated another $21 million for specific
               capability enhancement projects. The planning funds were to pay
               for various tasks described in the State’s standard statements of
               work expected of each regional Council of Government. The tasks
               included 7 regional planning tasks, 10 local planning assistance
               tasks, 9 grant support planning tasks, 3 exercise planning tasks,
               and 4 reporting tasks.

               The State required each Council of Government to prepare annual
               implementation plans detailing what each Council was to do and
               milestones for completion of the work. Although performance
               requirements were specifically defined by the State, it did not
               require the Councils to document or regularly report on whether
               and how these requirements were performed. As indicated above,
               neither the automated project tracking system nor the on-site
               subgrantee monitoring program were designed to cover
               subgrantees’ performance of expected program or project
               activities.

               Similar situations existed for the Urban Areas and the other
               subgrantees. As a result, the State did not have an adequate basis
               for knowing whether or how well subgrantees were performing
               assigned tasks related to enhancing prevention, response, recovery,
               and mitigation capabilities.




      The State of Texas’ Management of State Homeland Security Program and 
 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                       Page 12

               Identified Performance Issues

               During our visits we observed several conditions that could have
               been identified through routine performance tracking or on-site
               monitoring of subgrantee performance. If these types of issues
               were identified during monitoring visits, the State would have been
               in a better position to evaluate the problems and to determine the
               appropriate actions to address the issues.

               •	 The State had invested more than $10 million in the
                  development of seven fusion centers. However, the State had
                  not developed systematic state-wide guidance on assessing the
                  performance of the centers. Fusion center and local officials
                  said that little guidance had been provided by the State on the
                  expectations for the Centers. The officials said that they were
                  left on their own and were still developing performance goals
                  for assessing Centers effectiveness.

               •	 Councils of Government differed in how they related to
                  subgrantees. For example, one Council was closely engaged
                  with the activities of subgrantees and special response teams,
                  while another Council was not familiar with such critical
                  matters as what special response teams were located in the
                  region. Also, the latter Council’s implementation plans called
                  for designing and applying a process for reviewing the
                  eligibility of potential subgrantees in the region. When asked
                  whether these tasks had been done, a Council official told us
                  that both had been done, but neither had been documented.

               •	 A first responder trailer purchased by a regional Council of
                  Government in 2006 for $250,000 was of questionable use
                  within the Council’s region because of the trailer’s unusually
                  large size and design. At the time of our visit, we were
                  informed that the trailer had been parked since its purchase,
                  with very little use. When we notified the State Administrative
                  Agency of this situation, the Agency immediately investigated
                  the matter and began efforts to find use for the trailer at another
                  location.

               •	 A special response team had to use bolt cutters to cut pad-locks
                  to open the doors on two first responder trailers because keys
                  to the locks were not available. Upon opening the trailer doors,
                  we discovered that two relatively new mobile generators had
                  flat tires and would have been difficult to move in the event of
                  an emergency.

      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 13

               •	 In another city, a consultant’s report in March 2009 said that
                  the city’s Special Weapons and Tactics team’s body armor had
                  been expired since 2003. Efforts to fund replacement body
                  armor were still under way at the time of our visit.

               •	 During our visits to subgrantees, we identified some grant-
                  funded projects that had developed into potential “best
                  practices” that could be beneficial if adopted by other
                  jurisdictions. (See the best practices section of this report.)
                  The State’s tracking and site-monitoring efforts did not identify
                  best practices that could be communicated statewide for
                  optimum application.

               In 2005, the Texas State Auditor also reported that the State had
               not adequately held regional and local jurisdictions accountable for
               grant funds and for reporting their performance. The report
               recommended, among other things, that the State develop
               subgrantee agreements that hold regional and local jurisdictions
               accountable by clearly defining expectations and developing and
               including detailed performance measures in the agreements. In the
               response to the audit report, the State Administrative Agency (then
               the Texas Engineering Extension Service) agreed with the
               recommendation and said that it would develop and include
               detailed performance measures in all subgrantee agreements for the
               2004 grant years and beyond. At the time of our review, the State
               still had not developed or applied performance measures that
               would hold regional and local subgrantees accountable for their
               performance.

               The State Administrative Agency Director told us that the Agency
               will be looking for ways to improve its monitoring of subgrantees
               by including program performance issues in its routine monitoring
               efforts and its on-site monitoring program. The Director said that
               high staff turnover and absence of expertise had impeded the
               Agency’s efforts to improve subgrantee monitoring, which has
               contributed to the above issues.

      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the Texas Department of Public
               Safety to:

               Recommendation #4: Develop and implement a process for
               expanding the scope of monitoring to include:

      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 14

                    a.	 assessments of key program performance and progress
                        issues, and
                    b.	 the identification of potential best practices that may
                        warrant communications to other subgrantees.

      Management Comments and Auditors’ Analysis
               The draft report commented on by FEMA contained two
               recommendations for our findings on monitoring of subgrantees.
               While expressing concurrence with the two recommendations
               (formerly recommendations #4 and #5 in the draft report), FEMA
               suggested that they be combined into one recommendation to
               avoid duplication and redundancy. We agreed with FEMA’s
               suggestion and revised the recommendations accordingly before
               finalizing this report. The revised recommendation is essentially
               the same as the two in the draft report.

               Additionally, FEMA said that its FY 2010 monitoring visit showed
               that Texas had established a process to identify and document best
               practices discovered through monitoring their subrecipients.
               FEMA also said that it is satisfied with the state’s progress in this
               regard and is confident that the State will be able to provide greater
               focus and resources in its monitoring protocols, and assess
               progress and performance achieved under currently open grants.

               The State concurred with the finding and recommendation.
               Officials explained that while performance checks of Urban Areas
               Security Initiative grants are conducted every two years by DHS
               and Texas State monitors, Texas is taking additional steps to
               enhance the performance improvement process by assigning:

                    •	 A senior homeland security planner to each of the six
                       Department of Public Safety regions (which include 24
                       Councils of Government and 5 Urban Areas Security
                       Initiatives),
                    •	 Two homeland security planners for the 34 State agencies,
                       and
                    •	 A State Lead for each of the 37 items on the Target
                       Capabilities List, aligning those items and leads with
                       already existing homeland security-related councils and
                       committees.

               The State expects that the actions above will provide the
               leadership, oversight, and assistance required to periodically assess
               and improve performance state-wide. In addition, the State said

      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 15

                that the State Administrative Agency has been realigned under the
                Office of Homeland Security and will form the basis for a
                reorganized and expanded homeland security directorate to assist
                in enhancing the homeland security posture of the State while
                serving as a model for the nation in collaborative grants
                management and faithful stewardship of taxpayer resources.

                The State said it will establish performance standards and include
                the standards in subgrantee agreements for subsequent monitoring.
                State monitors will then expand the scope of on-site monitoring to
                include programmatic issues. The State also said that its monitors
                began sharing best practices among jurisdictions in July of 2010.
                The State said that the Urban Areas Security Initiatives programs
                already identify and share best practices through the quarterly
                meetings hosted by the State Administrative Agency and through
                the Texas Urban Areas Security Initiatives Peer-to-Peer Planning
                Network.

                The FEMA and State comments are responsive to our
                recommendations. If properly implemented, the actions identified
                in the responses should address the conditions identified during the
                audit. Within 90 days, the Assistant Administrator, Grant
                Programs Directorate, needs to provide corrective actions for the
                recommendations and a plan to ensure the State’s implementation
                of its proposed corrective actions proceeds as intended.

Timely Expenditure of Grant Funds
       The State obligated grant funds to subgrantees in accordance with federal
       requirements but subgrantees did not always initiate projects in a timely
       manner. As a result, funds were not expended within the original 3-year
       performance period of the grants. Consequently, first responders were less
       likely to be timely equipped, trained, and prepared as possible.
       Additionally, other priority homeland security initiatives were not
       completed as timely as possible.

       FEMA Information Bulletin No. 257 dated July 17, 2007, addressed the
       condition that there were many requests by grantees for extending the
       grant performance periods for FY 2002, 2003, and 2004 grants. The
       bulletin recognized that there were problems in making timely
       procurements but that it was important to ensure that funds were obligated
       and expended in a timely manner, within established periods for
       performance. In addition, FEMA’s Program Guidance for the FY 2008
       Homeland Security Grant Program stated that FEMA strongly encouraged


       The State of Texas’ Management of State Homeland Security Program and 
 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                        Page 16

      the timely obligation of funds from local units of government to other
      subgrantees.

      The State’s grant expenditure report showed that 60% of the FY 2007
      grant funds awarded to subgrantees had not been drawn down as of
      September 30, 2009. The following table shows the undrawn amount of
      Homeland Security Grant Program funds for each of the 3 grant years
      included in our audit, based on data in the State’s expenditure reports.

                                              Table 2
                         Texas Homeland Security Grant Program
                                Awards and Draw Downs
                                As of September 30, 2009
                                             ($ millions)
                    Date of
         Grant                    Total          Total          Undrawn         Percentage
                   Award to
         Year                    Awarded      Draw Downs        Balance          Undrawn
                   the State
         2006       06/30/06       $ 89.9           $ 80.1           $   9.8        11%
         2007       08/13/07       $ 121.6          $ 48.8           $ 72.9         60%
         2008       09/05/08       $ 142.3          $ 17.2           $ 125.1        88%


      The State had previously advised all potential subgrantees in 2007 grant
      guidance that the State needed the help of subgrantees’ staff to ensure that
      the tasks needed to carry out grant requirements (deciding what to buy,
      ordering, receiving, and submitting invoices for payment) were executed
      expeditiously. The 2007 grant guidance included a timeline that showed
      (1) when all grant funds were to be allocated towards projects,
      (2) deadlines for cities, counties, and regions to order equipment or
      otherwise commit funds to training and exercises, and (3) established a
      deadline for grantees to submit invoices to the State for reimbursement.
      The guidance stated that subgrantees needed to make every effort to
      accomplish tasks before deadlines approached since the State did not plan
      to issue any grant extensions.

      State officials said that the large percentage of 2007 funds that remained
      unexpended as of September 30, 2009, indicated that some jurisdictions
      were still not sufficiently aggressive in starting and finishing projects,
      which could lead to requests for extensions in the grant performance
      period. The State noted in the 2007 grant guidance that it had to extend
      the period of performance for FY 2005 homeland security grants until
      October 31, 2007 for these reasons. In the 2007 grant guidance, the State
      also advised subgrantees that the lead time for the procurement of build-
      to-order-equipment, such as hazardous response vehicles, specialized fire
      equipment, and customized electronics, was long.


      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 17

      During our fieldwork, State Administrative Agency staff provided
      documentation to show they were receiving reports from the regional
      planning commissions and Councils of Government on the status of
      subgrantee projects which could be used to monitor subgrantee project
      progress. The State Administrative Agency Director said that she was
      considering establishing specific timeframes for grant recipients to initiate
      and complete certain projects. If projects were not initiated timely, the
      funds may be reallocated to other projects. However, this possible action
      had not been formalized into official procedures.

      Delays in expenditures of grant funds can impede State and subgrantees’
      opportunities to enhance preparedness and response capabilities. Such
      delays also lead to extensions in the grant performance time period and
      delays in officially closing the grant. Accounting and reporting
      requirements continue as long as the grant remains open, which burdens
      both staff and tracking systems.

      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the Texas Department of Public
               Safety to:

               Recommendation #5: Develop and implement procedures, with
               appropriate controls (such as deadlines), to ensure that subgrantee
               funds are drawn down in a timely manner.

      Management Comments and Auditors’ Analysis
               FEMA concurred with the recommendation (formerly
               recommendation #6 in the draft report). FEMA said that Texas has
               met all applicable grant program requirements concerning draw-
               downs, and there were no outstanding compliance issues. FEMA
               believed it was in the State’s best interest to identify and
               implement strategies that ensure its subrecipients’ funds are drawn
               down on a regular basis to facilitate accurate reporting and 100%
               of grant draw-down upon the grant’s expiration.

               The State also concurred with the finding and recommendation.
               The State said that, to maximize the productivity of grant funds,
               Texas will revise the timeline for grant expenditures, narrowing the
               window for subgrantee expenditures to give the State an
               opportunity to identify and reallocate unspent funds. The
               reallocations would be, in accordance with the State homeland
               security strategic plan, to other high-priority gaps and unmet needs

      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 18

                throughout the State. The State said these changes will soon be
                incorporated into a State-wide guide.

                The comments by FEMA and the State are responsive to the
                recommendation. If properly implemented, the actions identified
                in the State’s response should address the conditions identified
                during the audit. Within 90 days, the Assistant Administrator,
                Grant Programs Directorate, needs to outline the corrective actions
                for the recommendation and a plan to ensure the State’s corrective
                actions proceed as intended.

Statewide Strategy for Special Response Teams
       The State had not established a statewide strategy concerning the optimum
       numbers, types, and locations of special response teams needed in the
       State. Also, the State had not established requirements or provided
       guidance and direction to existing or potential special response teams
       concerning standardization of equipment, training, exercises, and
       capability revalidation needs. As a result, the special response teams did
       not benefit from an overall statewide strategy to ensure that the teams
       were properly equipped, trained, exercised, validated, and interoperable.

       The State of Texas relies on special response teams in cities and counties
       throughout the State to be ready to respond to terrorist attacks and other
       catastrophic events. Teams were established to specialize in hazardous
       materials, search and rescue, special weapons and tactics, improvised
       explosive devices (bombs), and other emergencies. Within these
       categories, individual teams can vary, depending on their equipment,
       training, and capabilities. For example, Hazardous Materials Entry Teams
       are Type I, II, or III, depending on whether the Teams are staffed,
       equipped, and trained to meet or exceed minimum capabilities defined by
       FEMA for each type.

       An overall assessment of the State’s special response teams’ capabilities
       would require establishing a policy defining the States’ goals and
       objectives as to the desired special response team types, numbers,
       locations, and capabilities, and analyzing the locations and established
       capabilities of existing special response teams across the State. While not
       required by FEMA, the State’s strategic plan did not include a strategy
       concerning the optimum numbers, types, and locations of special response
       teams needed in the State. Also, the State’s Preparedness Reports did not
       provide an overall assessment of the State’s special response team
       preparedness and response capabilities.




       The State of Texas’ Management of State Homeland Security Program and 
 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                        Page 19

      The continued readiness of a special response team involves vigilance to
      ensure that the team is properly equipped, fully trained and exercised, and
      periodically revalidated as being capable of carrying out its role.
      Standardization of equipment and training among teams aspiring to
      develop and maintain like capabilities is beneficial because
      standardization provides interoperability among the teams, promotes
      economies in procurement, and facilitates oversight and assessment of
      how team leaders ensure that their teams are properly equipped, trained,
      exercised, and revalidated.

      The State Administrative Agency recognized that the identification and
      correction of a team’s deficiencies during exercises and revalidation
      reviews were vital to attaining and maintaining capabilities at the desired
      level. In this regard, the State Administrative Agency told us that reviews
      were performed of special response teams that verified training of first
      responders. However, the State had not provided guidance and direction
      on how special response team leaders were to ensure, on a current basis,
      that teams were ready to respond with the appropriate equipment, training,
      exercise experience, and revalidation credentials vital to effective
      response.

      We visited several special response teams in Texas, which included
      hazardous materials teams, urban area rescue teams, strategic weapons and
      tactics teams, crisis management teams, and bomb squads. We had
      discussions with each team on how the team ensured that they were
      adequately equipped, trained, exercised, and revalidated. All of the teams
      seemed highly motivated and dedicated toward that objective. The
      following observations indicate areas that need improvement:

           •	 Except for bomb squads, the teams we visited did not have
              standardized listings of the minimum items of equipment and
              training needed to perform their respective team missions. The
              decisions on equipment and training were made team-by-team
              using general guidance from recognized organizations and
              associations. The State did not provide standards or guidance on
              the minimum equipment and training needs. As a result, the State
              did not ensure that special response teams were as interoperable as
              would be the case if all of the teams were similarly equipped and
              trained.

           •	 One Special Weapons and Tactics team leader said that when his
              department decided to form the team, there was no ready means for
              finding out what specific items of equipment the team needed. He
              explained that he and his team members learned about equipment
              by attending various training sessions.

      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 20

           •	 Although the teams maintained data on various events related to
              training class scheduling and attendance, only one of the teams had
              assembled such data into an overall matrix or similar document
              showing whether or not each member had attended each
              mandatory or highly-recommended training course.

           •	 Needed improvements identified during exercises, and actions
              taken to affect the improvements, were also not readily visible in
              team records.

           •	 The State had not established a process for independent subject
              matter experts to periodically assess the readiness of special
              response teams, or validate teams’ capabilities.

      According to State and regional officials, the State staff did not have
      sufficient subject matter expertise and was reluctant to assert control over
      regional, city, and local officials. In this regard, the State’s FY 2008
      Investment Justification for Public Safety and Response stated that grant
      management and administration oversight would be provided by each
      subgrantee. Each subgrantee had dedicated project and financial
      management personnel who would oversee the use of grant funds. The
      State Administrative Agency was to serve in a review and approval
      capacity only.

      Without an overall strategy on the optimum numbers, types, and locations
      of special response teams needed, the State cannot ensure that efforts to
      enhance its response capability are given appropriate priority and
      direction. The absence of statewide standards on special response team
      equipment, training, exercises, and validation requirements decreases the
      prospect of teams working smoothly and effectively together in the event
      of a major terrorist attack requiring massive response. As a result, the
      special response teams did not benefit from an overall statewide strategy
      to ensure that the teams were properly equipped, trained, exercised, and
      validated.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, direct the Texas Director of Public Safety to employ
               appropriate subject matter experts to:

               Recommendation #6: Coordinate regionally in determining the
               numbers, types, and locations of special response teams needed in
               the State in comparison to the numbers, types and locations of
               existing special response teams.

      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 21

               Recommendation #7: Provide guidance and direction to special
               response teams concerning standardization of equipment, training,
               exercise, and revalidation needs.

               Recommendation #8: Establish a procedure designed to ensure
               that strategically positioned special response teams are equipped,
               trained, exercised, and validated.

      Management Comments and Auditors’ Analysis
               FEMA concurred with recommendation #6 (formerly
               recommendation #7 in the draft report) to coordinate regionally in
               determining the numbers, types, and locations of special response
               teams needed in the State in comparison to the numbers, types and
               locations of existing special response teams. FEMA said that the
               State will be better positioned to meet its Homeland Security
               Strategy Goal to maximize response capabilities by expanding the
               State’s regional response and mutual aid network, and by
               coordinating with its subrecipients in an effort to more accurately
               determine current resources, needs, and desired end state/outcomes
               relating to special response teams throughout the State of Texas.
               FEMA added that the importance of capabilities and needs
               assessments that address multiple disciplines and agencies is
               evident throughout FEMA’s planning doctrine.

               FEMA did not concur with recommendation #7 (formerly
               recommendation #8 in the draft report) as presented in the draft
               report, to require the State to provide guidance and direction to
               special response teams and use independent subject matter experts
               to assess special response team capabilities and readiness. FEMA
               believed the development of subrecipient policies and procedures
               is a State responsibility. FEMA deferred to the State to identify
               the mechanisms and/or means by which the State will provide
               guidance and direction to the special response teams in the area of
               equipment, training, standardization, and exercise validation. The
               recommendation was changed to delete the use of independent
               subject matter experts to assess capabilities and readiness.

               FEMA concurred with recommendation #8 (formerly
               recommendation #9 in the draft report), which was revised as
               FEMA suggested in discussing a draft of this report. FEMA
               explained that the suggested revision sought to reaffirm the
               responsibilities of State Administrative Agencies to ensure the
               grant program expenditures are made in direct support of state or
               urban area homeland security strategic plans as applicable, and that

      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 22

                operational plans, purchases, training, and exercises align to those
                strategies.

                The State concurred with the findings and recommendations. The
                State said that an updated Texas Homeland Security Strategic Plan
                will address this recommendation and designate a State lead to
                oversee how special response teams are established, positioned,
                equipped, trained, exercised, and validated.

                The State said that, in the meantime, State and federal policies and
                procedures are already in place to support the standardization of
                equipment, training, exercises, and revalidation of various special
                response teams. These include (1) the FEMA Resource Typing
                guidance; (2) the National Fire Protection Association’s 472
                Standards for Competence of Responders to Hazardous
                Materials/Weapons of Mass Destruction Incidents, 2008 Edition,
                adopted by the Texas Commission on Fire Protection; (3) the
                National Tactical Officers Association SWAT Standards,
                supplemented by the Texas Tactical Police Officers Association’s
                SWAT Best Practices publication; (4) the National Guidelines for
                Bomb Technicians, regularly updated by the Federal Bureau of
                Investigations; and (5) the National Strategic Plan for U.S. Bomb
                Squads, annually updated by the National Bomb Squad
                Commanders Advisory Board. In addition, the State said that
                annual investment justifications generally reference specific
                changes in guidelines or best practices to justify proposed
                purchases of equipment, training, or exercises.

                The FEMA and State proposed actions are responsive to the
                recommendations. Within 90 days, the Assistant Administrator,
                Grant Programs Directorate, needs to outline the corrective actions
                for the recommendations and a plan to ensure the State’s corrective
                actions proceed as intended.

State Agency Project Selection and Tracking
       State Agency project proposals were not evaluated with the same scrutiny
       applied to other Homeland Security projects proposed by local
       jurisdictions. Additionally, State Agency projects were not tracked in the
       State’s automated grants management tracking system. As a result, the
       State cannot ensure that the most deserving State Agency projects were
       selected from among all proposed State Agency projects. Also, State
       Administrative Agency officials did not receive the benefits of the State’s
       tracking system for State Agency projects. Accordingly, the State’s ability


       The State of Texas’ Management of State Homeland Security Program and 
 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                        Page 23

      to ensure that the State Agency projects were being managed in 

      accordance with federal requirements was diminished. 


      FEMA guidance has emphasized the importance of tying project funding
      decisions to approved state Homeland Security Strategies, which in turn
      must align with national priorities and target capabilities. Toward this
      end, Texas has developed and implemented processes and procedures to:

           •	 Ensure that projects proposed by subgrantees are reviewed and
              ranked by formal committees or working groups;

           •	 Ensure that the projects are, among other things, in line with the
              State strategy and national priorities; and

           •	 Ensure that the most beneficial projects are selected for funding.

      The State also has a highly automated system, the State Preparedness
      Assessment and Reporting Service, for controlling and tracking the
      financial progress of grant-funded homeland security projects. The
      Assessment and Reporting Service is a customized grant management tool
      that is designed to help grantee staff oversee the financial progress of
      Homeland Security grants. The system has several automatic checks and
      balances to ensure compliance with federal requirements. However, the
      State did not require that State Agency funded projects be tracked in the
      State’s automated system, as required of other subgrantees. The State
      agencies used their own systems for tracking the projects rather than the
      State Preparedness Assessment and Reporting Service system.

      The State designed a formal process for reviewing and approving
      subgrantee State Agency proposed projects, but the process was never
      implemented. The process included providing homeland security
      guidance to the potential State agency subgrantees, notifying the Texas
      Division of Emergency Management Council (made up representatives
      from State Agencies with Homeland Security responsibilities) of the
      guidance, and requesting potential State agency subgrantees to submit (on-
      line) investment justifications in alignment with target capabilities and
      with the Texas Homeland Security Strategic Plan.

      Instead of the formal process for selecting State Agency projects, an
      informal process was used. State Agency officials explained that they
      would meet with the Director of the Texas Department of Emergency
      Management to discuss the merits of each project. The State Agency’s
      staff would then submit a project proposal to the Director for review. The
      Director would then discuss the proposed project and funding with the
      State’s Director of Homeland Security. These officials would make the

      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 24

      final decision as to which State Agency projects were approved and the
      amount of grant funds awarded for each project. State Agencies whose
      projects were selected for funding would receive a letter advising them of
      the amount of funding. The State Agency would then enter into a
      subrecipient agreement with the Texas Department of Emergency
      Management.

      Texas Department of Emergency Management officials stated that the
      need for some projects was initially identified as a result of a shortfall
      identified either during an exercise or actual response to an emergency
      incident or disaster. At other times, the need for a project was identified
      by local governments, Councils of Government, and State Agencies
      during workshops, conferences, training, and exercises. Once the need for
      the project was determined, discussions among staff were conducted to
      determine the best means to close the gap. Under this less formal process,
      there is an increased risk that important projects proposed by State
      Agencies will not receive proper consideration.

      State officials acknowledged that State Agency projects were not tracked
      in the State Preparedness Assessment and Reporting Service system but
      were tracked separately. However, State officials said that actions had
      been initiated to include State Agency projects in the State Preparedness
      Assessment and Reporting Service system. We believe this is a positive
      first step and should be promptly completed. Including the State Agency
      projects would better ensure that the State Agency projects are subject to
      the same tracking and control as regional and local projects.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of Texas Department of Public
               Safety to:

               Recommendation #9: Ensure that State Agency project proposals
               are evaluated using the State’s established review and approval
               process.

               Recommendation #10: Complete the process to enter current and
               future State Agency projects into the State Preparedness
               Assessment and Reporting Service.

      Management Comments and Auditors’ Analysis
               FEMA concurred with both recommendations (formerly
               recommendations #10 and #11 in the draft report). FEMA

      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 25

                acknowledged the need for consistency in review of all grant-
                funded, local, regional, and State projects. FEMA stated that it
                concurs with the intent of the recommendation as a best practice
                with the understanding that the State is already compliant with its
                reporting requirements cited within the FEMA grant program
                guidance packages.

                The State also concurred with the finding and recommendations.
                Prior-year State agency grants are currently being closed out and,
                due to financial tracking requirements, it is not practical to enter
                current State projects into State Preparedness and Reporting
                Service system. All FY 2010 and future State projects will be
                entered into and tracked using that system. The State has opened a
                competitive call for State agency projects, which will be reviewed,
                prioritized and awarded by the Texas Homeland Security Council
                based on the technical capabilities list, risk assessment framework,
                and how well they address the goals and objectives of the State
                Strategic Plan.

                The FEMA and State comments are responsive to the
                recommendations. If properly implemented, the actions identified
                in the State’s response address the conditions identified during the
                audit. Within 90 days, the Assistant Administrator, Grant
                Programs Directorate, needs to outline the corrective actions and a
                plan to ensure the State’s implementation of its proposed
                corrective actions proceed as intended.

Councils of Government Allocations
       Councils of Government funding allocations to their local jurisdictions
       were not always made using a risk-based methodology. While not
       required by FEMA, risk management is a way to direct finite resources to
       those areas that are most at risk of terrorist attack under conditions of
       uncertainty. Given limited resources, risk management is a structured
       means of making informed tradeoffs and choices about how to use
       available resources, and of monitoring the effect of those choices.

       In three Texas regions, the Councils of Government used factors other
       than risk to allocate funding to their jurisdictions, including dividing
       available funds equally among jurisdictions. For example:

            •	 For FY 2006 funding and prior years, one Council of
               Government’s First Responder Preparedness Committee used a
               percentage to allocate funding. The region’s major city, with a
               population of about 700,000, received 60 % of the funding while

       The State of Texas’ Management of State Homeland Security Program and 
 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                        Page 26

               the remaining jurisdictions divided the remaining 40 % of the
               funds equally.

           •	 For FYs 2007 and 2008, the Committee divided all funds evenly
              throughout the eligible jurisdictions with the exception of the
              Tribal Nation, which received less funding. The reason given for
              dividing the funding equally was to allow each jurisdiction (i.e.,
              county) to build capabilities. No reference was made to risk,
              vulnerability, or consequence in making the equal division, even
              though populations and infrastructures of the seven jurisdictions
              varied significantly. The largest county in the region, which
              included a major city, had an estimated population of 742,000 in
              2008, whereas the next largest county had a population of 9,331
              and the smallest county had 2,275 residents.

      The State Administrative Agency had not developed a risk-based
      methodology for the Councils to use in assessing risks when ranking
      potential projects. Instead, Councils were allowed flexibility in the
      manner in which projects were prioritized and funding allocated. The
      State Administrative Agency also did not examine the methodology of the
      Councils to ensure that fund allocations were risk-based.

      Without a requirement and process for allocating funds to local
      jurisdictions based on risk, there was no assurance that the Homeland
      Security Grant Program fund allocations reflected the appropriate level of
      risk and provided the respective jurisdictions grant funds consistent with
      the level of threat to the jurisdiction.

      State Administrative Agency officials acknowledged that a risk-based
      methodology was not always used with respect to allocating funds to local
      jurisdictions. However, the officials said that starting with FY 2011
      funding they intended to require the use of a risk-based methodology for
      the distribution of all grant funds.

      Recommendation:
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of Texas Department of Public
               Safety to:

               Recommendation #11: Ensure that Councils of Government
               consider the benefits of a risk-based methodology when allocating
               grant funds to local jurisdictions.



      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 27

       Management Comments and Auditors’ Analysis
                FEMA stated that it may not legally “require” the recommended
                action. However, FEMA supported the spirit and intent of the
                recommendation (formerly recommendation #12 in the draft
                report). FEMA added that it does not mandate that grantees
                administer a specific allocation method in their sub-award process.
                It is therefore up to the State to determine the most effective
                method of allocation, whether to include risk or otherwise, and to
                advise its subrecipients accordingly.

                The State concurred with the recommendation. The State
                explained that this methodology is already under development and
                will be introduced to the subgrantees in December 2010, with
                initial implementation for grant year 2011. In addition, as part of
                their quarterly reporting, subgrantees will be required to
                demonstrate how they use this methodology for allocating
                homeland security funds to local jurisdictions. This methodology
                is based upon the State Preparedness Report being tailored to
                specific needs of urban and rural areas, and is designed to promote
                equity, transparency, and the use of common tools and assessment
                approaches. Although the State Preparedness Report relies on self-
                reporting, monitoring processes are also being developed to ensure
                accuracy of and compliance with what is being reported. Annual
                reviews central to the allocation of grants funds, based on the
                developed methodology, will be conducted in the first quarter of
                each subsequent calendar year, beginning in calendar year 2012
                (allocations of grant funding from Councils of Government to local
                jurisdictions).

                The comments by FEMA and the State are responsive to the
                recommendation and, if properly implemented, the State’s
                proposed corrective actions should address the conditions
                identified during the audit. Within 90 days the Assistant
                Administrator, Grant Programs Directorate, needs to outline the
                specific corrective actions and provide a plan to ensure the State’s
                implementation of its proposed corrective actions proceed as
                intended.

Inventory Control Requirements
       State subgrantees did not always maintain inventory records in accordance
       with federal requirements. Eight of the 10 subgrantees we visited were
       not in compliance with property record requirements. As a result, the
       State did not have reasonable assurance that the assets procured with

       The State of Texas’ Management of State Homeland Security Program and 
 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                        Page 28

      federal funds were adequately safeguarded to prevent loss, damage, or
      theft of the property.

      Statewide, subgrantees are responsible for managing and safe-guarding
      equipment and property purchased with State Homeland Security Program
      and Urban Areas Security Initiative grant funds. Code of Federal
      Regulations Title 44 § 13.32 (d), Management requirements, establishes
      procedures for managing equipment (including replacement equipment),
      whether acquired in whole or in part with grant funds, and includes the
      following minimum requirements:

           •	 Property inventory records must be maintained and must include
              12 data elements for each item: unit cost, description, source,
              acquisition date, identification number, location, title holder, use,
              condition, percent purchased with federal funds, ultimate
              disposition date, and sales price.

           •	 A physical inventory of the property must be taken and the results
              reconciled with the property records at least every two years.

           •	 A control system must be developed to ensure adequate safeguards
              to prevent loss, damage, or theft of the property. Any loss,
              damage, or theft shall be investigated.

      Code of Federal Regulations Title 44 § 13.20 (b) (3) requires that effective
      control and accountability be maintained for all grant and subgrant cash,
      real and personal property, and other assets. Grantees and subgrantees
      must adequately safeguard all such property and must assure that it is used
      solely for authorized purposes. Also, Code of Federal Regulations Title 2
      § 215.34 (f) (4) requires that a control system be in effect to ensure
      adequate safeguards to prevent loss, damage, or theft of the equipment. In
      the State of Texas, contracts between the grantee and the subgrantees also
      require subgrantees to maintain control and accountability over assets
      acquired with federal funds.

      Inventory records at 8 of the 10 subgrantees we visited did not contain all
      of the required information. Individually, the control log for each of the
      eight noncompliant subgrantees was missing between 1 and 10 of the
      12 data fields with an average of 6 missing data fields. Some subgrantee
      staff responsible for maintaining the inventory control logs told us that
      they were not fully aware of the property management requirements.
      However, the property management requirements were included by
      general reference in the grant agreements between the State and each
      subgrantee. Also, the State Administrative Agency had posted
      information on its web site detailing federal property record keeping

      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 29

      requirements. In addition, the State Administrative Agency presented the
      property record keeping requirements at State Homeland Security
      Conferences.

      Without the required property management records, subgrantees cannot
      maintain, safeguard, control, or adequately account for assets procured
      with federal funds. If subgrantees do not have accurate records of existing
      equipment, they cannot make sound management decisions regarding
      what additional equipment they need in the future.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the Texas Department of Public
               Safety to:

               Recommendation #12: Enforce the property management
               requirements for equipment purchased with federal funds in
               individual subgrantee contracts.

               Recommendation #13: Require subgrantees that are not in
               compliance to provide a plan to the State to become compliant
               within a specified timeframe.

               Recommendation #14: Include verification of compliance with
               property management requirements during on-site monitoring
               visits to subgrantee locations.

      Management Comments and Auditors’ Analysis
               FEMA concurred with the recommendations (formerly
               recommendations #13, #14, and #15 in the draft report). FEMA
               said that each state is monitored by FEMA to ensure compliance
               with the specific property management requirements cited within
               44 CFR.

               The State concurred with the findings and recommendations. The
               State said that it will reaffirm and enforce the property
               management requirements for equipment purchased with federal
               funds in individual subgrantee contracts. The State also said that
               verification of compliance with property management
               requirements will be accomplished during on-site monitoring visits
               to subgrantee locations. The State said further that
               jurisdictions/agencies found not to be in compliance will be


      The State of Texas’ Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 30

                required to provide a plan to the State to become compliant within
                30 days of the finding.

                The comments by FEMA and the State are responsive to the
                recommendation and, if properly implemented, the actions
                identified in the State’s response should address the conditions
                identified during the audit. Within 90 days, the Assistant
                Administrator, Grant Programs Directorate, needs to outline the
                corrective actions and provide a plan to ensure the State’s
                implementation of its proposed corrective actions proceed as
                intended.

Two Texas Subgrantees Developed Systems That May Be Best
Practices
       We identified the following two practices in Texas that the Assistant
       Administrator, Grant Programs Directorate, should consider evaluating for
       potential use by other jurisdictions and states:

            •	 The City of Houston developed an emergency medical service
               patient tracking system. The system provides information on
               patients and tracks the patients from the time they arrive in
               Houston from an evacuated location (e.g., New Orleans) or from
               the scene of an incident, to a healthcare facility, through discharge
               from the facility, and to reunification with family or friends. This
               system was designed to avoid serious problems that actually had
               been experienced during major evacuations from hurricanes.

            •	 The Texas State Health and Human Services Department used
               Homeland Security grant funding for a system called the 2-1-1
               Information and Referral and Transportation Assistance Registry
               (Registry). All persons in Texas who may need assistance
               evacuating their homes during a disaster are entered in the
               Registry. The Registry is for people with disabilities, medical
               conditions, or other problems that would impede their ability to
               respond to a mandatory evacuation order because they do not drive
               or have family and friends to help. Across Texas, 2-1-1 Area
               Information Centers assist callers by explaining the Registry
               purpose and process. The Centers capture caller registration data
               in the Registry database. The Registry gives local emergency
               planners a better idea of the numbers of individuals who may need
               assistance and the type of assistance they may need during
               emergencies.



       The State of Texas’ Management of State Homeland Security Program and 
 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                        Page 31

Appendix A
Purpose, Scope, and Methodology

                       The purpose of the audit was to determine whether the State of
                       Texas distributed and spent State Homeland Security Program and
                       Urban Areas Security Initiative grant funds strategically,
                       effectively, and in compliance with laws, regulations, and
                       guidance. The goal of the audit was to identify problems and
                       solutions that can help the State of Texas better prepare for and
                       respond to threats, acts of terrorism, and other hazards. The audit
                       further enabled us to answer the following nine researchable
                       questions:

                            •   Were measurable goals developed from plans?
                            •   Do funded plans link all-hazards capabilities to goals?
                            •   Were funds and resources distributed based on goals?
                            •   Does the State accurately measure risk?
                            •   Does the State measure response capabilities?
                            •   Can the State demonstrate improved performance?
                            •   Were grants administered compliantly?
                            •   Did the State monitor grant programs?
                            •   What innovative practices can be used by other states?

                       The scope of the audit included the State Homeland Security
                       Program and Urban Areas Security Initiative grant awards for
                       FYs 2006, 2007, and 2008 as described in the Background section
                       of this report.

                       The audit methodology included work at FEMA Headquarters,
                       State of Texas offices, each of the urban areas that received grants,
                       and various subgrantee locations. To achieve our audit objective
                       we analyzed data, reviewed documentation, and interviewed the
                       key state and local officials directly involved in the management
                       and administration of the State of Texas’ Homeland Security Grant
                       Programs. We conducted site visits and held discussions with
                       appropriate officials from state agencies, Councils of
                       Governments, Urban Areas, counties, and cities in order to
                       determine if program grant funds were expended according to
                       grant requirements and State-established priorities.

                       In addition to the State Administrative Agency, we contacted the
                       following 26 subgrantee organizations. Except for two State
                       agencies (which provided information via written responses to our
                       questions) we made site visits to each subgrantee organization:




              The State of Texas’ Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 32

Appendix A
Purpose, Scope, and Methodology

                       State Agencies:
                          •	 Animal Health Commission
                          •	 Department of Emergency Management
                          •	 Department of Health and Human Services
                          •	 Department Information Resources
                          •	 Forest Service (written response only)
                          •	 National Emergency Response and Rescue Training Center
                              (written response only)

                       Councils of Government
                         •	 Alamo Area
                         •	 Capital Area
                         •	 North Central Texas
                         •	 Coastal Bend
                         •	 Houston-Galveston Area
                         •	 Rio Grande

                       Urban Areas Security Initiative Recipients
                          •	 Austin
                          •	 Dallas-Fort Worth
                          •	 El Paso
                          •	 Houston
                          •	 San Antonio

                       Counties
                         •	 Bexar County
                         •	 El Paso County
                         •	 Harris County

                       Cities
                           •	   Austin
                           •	   Dallas
                           •	   El Paso
                           •	   Fort Worth
                           •	   Houston
                           •	   San Antonio

                       At each location, we interviewed responsible officials, reviewed
                       documentation supporting State and subgrantee management of the
                       awarded grant funds (including expenditures for equipment,
                       training, and exercises), and physically inspected some of the
                       equipment procured with the grant funds. We also visited special
                       response teams at various locations.

              The State of Texas’ Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 33

Appendix A
Purpose, Scope, and Methodology


                       We conducted the audit between February 2010 and June 2010, in
                       accordance with Government Auditing Standards as prescribed by
                       the Comptroller General of the United States (Yellow Book-2007
                       Revision). Those standards require that we plan and perform the
                       audit to obtain sufficient, appropriate evidence to provide a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives. We believe that the evidence obtained provides a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives.

                       Although this audit included a review of costs claimed, we did not
                       perform a financial audit of those costs. This was a performance
                       audit as defined by Chapter 1 of the standards, and included a
                       review and report of program activities with a compliance element.
                       Foxx & Company was not engaged to and did not perform a
                       financial statement audit, the objective of which would be to
                       express an opinion on specified elements, accounts, or items.
                       Accordingly, Foxx & Company was neither required to review, nor
                       express an opinion on, the costs claimed for the grant programs
                       included in the scope of the audit. Had Foxx & Company been
                       required to perform additional procedures, or conducted an audit of
                       the financial statements in accordance with generally accepted
                       auditing standards, other matters might have come to their
                       attention that would have been reported. This report relates only to
                       the programs specified and does not extend to any financial
                       statements of the State of Texas.

                       While the audit was performed and the report prepared under
                       contract, the audit results are being reported by the DHS Office of
                       Inspector General to appropriate Federal Emergency Management
                       Agency and State of Texas officials.




              The State of Texas’ Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                               Page 34
 

Appendix B
FEMA Management Comments to the Draft Report


                                        December 2, 2010

MEMORANDUM FOR:                  Michael Siviy
                                 Director
                                 Grants Management Division, DHS OIG

FROM:                            Elizabeth M. Harman
                                 Assistant Administrator



SUBJECT:	 	 	                    Response to Draft OIG: The State of Texas’ Management
                                 of State Homeland Security and Urban Areas Security
                                 Initiatives Awarded During Fiscal Years 2006 through
                                 2008

Thank you for the opportunity to comment on the subject draft report entitled, “The State
of Texas’ Management of State Homeland Security and Urban Areas Security Initiatives
Awarded During Fiscal Years 2006 through 2008”. The findings in the report will be
used to strengthen the effectiveness and efficiency of how we execute and measure the
program. We recognize the need to continue to improve the process, including addressing
the recommendations raised in this report.

Thank you for the opportunity to respond to the report and to work with the Office of the
Inspector General during this engagement.


Attachment


cc: 	   Annette Hampton, RMBA
        Mildred Lloyd, GPD Audit Liaison




               The State of Texas’ Management of State Homeland Security Program and 
 

         Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                                Page 35
 
 

Appendix B
FEMA Management Comments to the Draft Report


Response to the Draft Report: The State of Texas’ Management of State Homeland 
 

 Security Program and Urban Areas Security Initiatives Grants Awarded During 
 

                         Fiscal Years 2006 through 2008 
 


OIG Recommendation #1: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to
develop strategic goals and objectives applicable to jurisdictions and first responder
capabilities that are specific, measurable, achievable, results-oriented, and time limited.

FEMA Response: FEMA concurs with the recommendation. The Grant Development
and Administration Division (GD&A) of the Federal Emergency Management Agency’s
(FEMA) Grant Program Directorate (GPD) approved the state’s Homeland Security
Strategy revision in January 2010. It is GD&A’s opinion that these revised goals and
objectives are specific, measurable, achievable, results-oriented and time limited, and will
serve the state well in its homeland security efforts going forward. Based on the
resubmitted Homeland Security Strategy, FEMA concludes that this recommendation has
sufficiently been addressed.

OIG Recommendation #2: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to
incorporate the goals and objectives into a statewide system for measuring first
responder, local jurisdiction, Councils of Government, Urban Area, and State agency
progress toward achieving the goals and objectives.

FEMA Response: FEMA may not legally “require” the recommended action. Although
FEMA GPD may not legally require the grantee to use (or create) a “statewide system”,
we encourage grantees to measure the progress of their capabilities as part of the State
Homeland Security Grant Program (SHSP) and the Urban Areas Security Initiative
(UASI) awards.      Thus, FEMA supports the spirit and intent of the OIG’s
recommendation as it will enhance the state’s ability to measure progress at grantee and
sub grantee levels.

OIG Recommendation #3: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to
include the progress achieved during the decision making process for preparing
applications and determining allocations of future grant awards.


FEMA Response: FEMA concurs with the recommendation. As in recommendation #2,
FEMA encourages grantees to measure the progress of their capabilities as part of the
SHSP and UASI grants and, if this is done, use this as a basis for making determinations
on grant allocations to sub grantees. GPD recognizes that the state is making an effort to
achieve this recommendation already, and GPD is satisfied with the state’s progress as
demonstrated through the 2009 and 2010 fiscal year grant processes.

               The State of Texas’ Management of State Homeland Security Program and 
 

         Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                                Page 36
 
 

Appendix B
FEMA Management Comments to the Draft Report


OIG Recommendation #4: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to
develop and implement a process for periodically assessing and improving the
performance of grant recipients against the goals, expectations, milestones, and work
tasks described in their respective implementation plans, investment justifications, area
strategies, and funded project descriptions.

FEMA Response: FEMA concurs with the recommendation however OIG agreed with
GD&A at the October 25, 2010 Exit Conference to merge Recommendations 4 and 5 to
assess performance and monitor accomplishments, according to sub grantee goals and
objectives.

OIG Recommendation #5: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to
expand the scope of monitoring (including on-site monitoring) to include assessments of
key program performance and progress issues and the identification of potential best
practices that may warrant communicating to other subgrantees.

FEMA Response: FEMA concurs with the finding and suggests that recommendations 4
and 5 be combined as one to avoid implementation duplication and redundancy. On this
specific issue, GD&A and the OIG were in agreement at the October 25, 2010 Exit
Conference to merge both of these recommendations. Additionally, and based on the
FY2010 Monitoring Visit conducted by GD&A, it acknowledges that Texas has
established a process to identify and document best practices discovered through
monitoring their sub recipients. GD&A is satisfied with the state’s progress in this regard
and is confident that by combining both recommendations as one the State will be able to
provide greater focus and resources in its monitoring protocols, and assess progress and
performance achieved under currently open SHSP and UASI grants.

OIG Recommendation #6: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to
develop and implement procedures, with appropriate controls (such as deadlines), to
ensure that sub grantees draw down funds in a timely manner.

FEMA Response:          FEMA concurs with the recommendation. FEMA GD&A
acknowledges that Texas has met all applicable grant program requirements concerning
draw downs, and there are currently no outstanding compliance issues. To that end, it is
in the state’s best interest to identify and implement strategies that ensure its sub
recipients are drawing down grant funds on a regular basis to facilitate accurate reporting
and 100% grant draw down upon the grant’s expiration.

OIG Recommendation #7: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to
coordinate with the Councils of Government in determining the numbers, types, and

               The State of Texas’ Management of State Homeland Security Program and 
 

         Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                                Page 37
 
 

Appendix B
FEMA Management Comments to the Draft Report

locations of special response teams needed in the State in comparison to the numbers,
types and locations of existing special response teams.

FEMA Response: FEMA concurs with the recommendation. The state will be better
positioned to meet its Homeland Security Strategy’s Goal 3 Objective 3.3, Maximize
Response Capabilities by Expanding the Statewide Regional Response and Mutual Aid
Network, by coordinating with its sub recipients in an effort to more accurately determine
current resources, needs, and desired end state/outcomes relating to special response
teams throughout the state of Texas. Though not cited as a programmatic requirement
within any current grant guidance under SHSP or UASI, the importance of capabilities
and needs assessments that address multiple disciplines and agencies can be found
throughout FEMA’s planning doctrine.

OIG Recommendation #8: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to
provide guidance and direction to special response teams concerning standardization of
equipment, training, exercise, and revalidation needs. including the possible use of
independent subject matter experts to assess special response team capability and
readiness.

FEMA Response: FEMA does not concur with the recommendation to require the State
to provide guidance and direction for sub recipient special response teams. FEMA
proposes removing the recommendation to use independent subject matter experts to
assess special response team capabilities and readiness because the development of sub
recipient policies and procedures is a State responsibility. Therefore, FEMA defers to the
State to identify the mechanisms and/or means by which the State will provide guidance
and direction to the special response teams in the areas of equipment, training,
standardization, and exercise validation.

OIG Recommendation #9: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to
establish a procedure to assess that strategically positioned special response teams are
equipped, trained, exercised, and validated.

FEMA Response: FEMA concurs with the intent of the recommendation, however the
proposed language to replace “assess” with “establish procedures designed to ensure” is a
more practical approach to identify ways to equip, train, exercise and validate response
teams. With this revised language, FEMA seeks to reaffirm the responsibilities of State
Administrative Agencies to ensure that grant program expenditures are made in direct
support of state or urban area homeland security strategic plans (as applicable) and that
operational plans, purchases, training, and exercises align to those strategies.

OIG Recommendation #10: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to


               The State of Texas’ Management of State Homeland Security Program and 
 

         Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                                Page 38
 
 

Appendix B
FEMA Management Comments to the Draft Report

ensure that State Agency project proposals are evaluated using the State’s established
review and approval process.

FEMA Response: FEMA concurs with the recommendation. GD&A acknowledges the
need for consistency in review of all grant funded, local, regional and state projects.

OIG Recommendation #11: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to
complete the process to enter current and future State Agency projects into the State
Preparedness Assessment and Reporting Service.

FEMA Response: FEMA GD&A concurs with the intent of this recommendation as a
best practice, with the understanding that the state is already compliant with its reporting
requirements cited within the SHSP and UASI grant program guidance packages.

OIG Recommendation #12: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to
ensure that Councils of Government consider the benefits of a risk-based methodology
when allocating grant funds to local jurisdictions.

FEMA Response: FEMA may not legally “require” the recommended action. However,
FEMA supports the spirit and intent of the OIG’s recommendation. FEMA GPD does
not mandate that grantees administer a specific allocation method in their subaward
process, and it is therefore up to the state to determine the most effective method of
allocation, whether to include risk or otherwise, and to advise its sub recipients
accordingly.

OIG Recommendation #13: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to
enforce the property management requirements for equipment purchased with federal
funds in individual sub grantee contracts.

FEMA Response: FEMA concurs with the recommendation. The Code of Federal
Regulations Title 44 §13.32 (d), Management requirements, states the minimum
requirements for managing equipment and replacement equipment purchased with grant
funds. Each state is monitored by FEMA to ensure compliance with the property
management requirements cited within 44 CFR. Grantees comply with these standards in
accordance with the applicable grant terms, conditions and assurances.

OIG Recommendation #14: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to
require sub grantees that are not in compliance to provide a plan to the State to become
compliant within a specified timeframe.



               The State of Texas’ Management of State Homeland Security Program and 
 

         Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                                Page 39
 
 

Appendix B
FEMA Management Comments to the Draft Report

FEMA Response: FEMA concurs with the recommendation. The Code of Federal
Regulations Title 44 §13.32 (d), Management requirements, states the minimum
requirements for managing equipment and replacement equipment purchased with grant
funds. Each state is monitored by FEMA to ensure compliance with the property
management requirements cited within 44 CFR. Grantees must comply with these
standards in accordance with the applicable grant terms, conditions and assurances.

OIG Recommendation #15: We recommend that the Assistant Administrator, Grant
Programs Directorate, require the Director of the Texas Department of Public Safety to
include verification of compliance with property management requirements during on-
site monitoring visits to sub grantee locations.

FEMA Response: FEMA concurs with the recommendation. The Code of Federal
Regulations Title 44 §13.40 Monitoring and reporting program performance, requires
FEMA grantees to “monitor grant and subgrant supported activities to assure
compliance with applicable Federal requirements and that performance goals are being
achieved”. This includes the requirements set forth within §13.32 (d), Management
requirements, which states the minimum requirements for managing equipment and
replacement equipment purchased with grant funds.




               The State of Texas’ Management of State Homeland Security Program and 
 

         Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                                Page 40
 
 

Appendix C
State of Texas Management Comments to the Draft Report




                   TEXAS DEPARTMENT OF PUBLIC SAFETY
                              SI05 N. LAMAR BLVD. BOX 4087. AUSllN, TEXAS 7.n).OOO1
                                                     ~121424-2000
                                                  _ _,lldp, IlIl' II ps




       _.-
       --                                                                                            ---
       --
                                                                                               .oI,.lM . . . . . . - . _
                                                                                                  G.'''''.,.....JII.
          -~


                                                 November 22. 2010
                                                                                                 --- _m~




         Ms. Anne L. Richards
         Assisun! Inspector General for Audits
         OffK:C of Inspector General
         U.S. Department of Homeland Security
         245 Murray Drive, S.W. Building410
         Washington, D.C. 20528

         Dear Ms. Richards:

         This feller is in answer to yoUT recent rcpon presenting audit results of the Slate of Texas'
         management of State Homeland Securit)' Prognun and Urban Areas Security Initiative grants
         awarded during Fiscal Years 2006lhrough 2008.

         The Slate of Texas concll~ with the 15 recommendations, which, when implemented, will
         enhance the effectiveness of the Slate's gnmts management and ovellln usc of grant funds. It
         will improve our ability to prepare. protect. respond and recover from acts of terrorism and/or
         anyall·ha1.ard.

         During the course of six months (Feb·Jun 2010). the Fou & COffiplll1y audit team displayed high
         professional competeoce and were extremely conscientious and diplomatic during eaeh of their
         visits. We appreciate the opportunity lO provide input to your draft findings and hope that we
         have offered a response (below) that is helpful in finalizing your report.

         Rerommendlltinn #1: Develop strategic goals and objectives applicable to jurisdictions and
         first responder capabilities that are specific, measurable, achievable, results-oriented, and time
         limited.

         Rrrommendation #2: IncorporaLe the goals and objectives into a statewide system for
         measuring first responder, local jurisdiction, Councils of Government. Urban Area. and Stale
         agency progress toward achieving the goals and objectives.

         Recommendation #3: Include the progress achieved during the decision making process for
         preparing applications and delennining allocations of future grant funds.




              The State of Texas’ Management of State Homeland Security Program and 
 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                                      Page 41
 
 

Appendix C
State of Texas Management Comments to the Draft Report




         Concur. Texas eagerly awaits FEMA's response to Congressman Cuellar's HR 398 -- the
         Redundancy Elimination & Enhanced Pcrfonnaoce for Preparedness Act. recently signed into
         law by President Obama, and it looks forward to incorporating the resulting proposed measures
         within a
         reasonable timeframe into its fUlUre homeland security (HLS) planning and grants management
         p........

         However, in the meantime. Texas will rely on (I) the outcome goals inherent in the 37
         capabilities of the Target Capabilities US! (feL), (2) the Texas risk·based assessment
         framework currently being developed (Items 13 &; 14 below). and (3) those homeland security
         goals. objectives. priority ac:tions. milestones, and measures already established in (a) the Texas
         Homeland Security Strategic Plan, 2010-2015, (b) tbe Texas Depanment of Public Safety (DPS)
         Sl11ltcgic Plan, 2010-2015, and (c) investment jUSliflCations (U) of the COOs, UASls and State
         agencies.

         ~. as well as the results renectcd in reportS of the Office of Homeland Security
         (OHLS)(Statc Administrative Agency (SAA) Monitors and various aftcr·ac1.ion reviews (AAR),
         will assist with future grant decisions.

         Recommendation '4: Develop and implement a process for periodically assessing and
         improving the performance of grant recipients against the goals. expectations. milestones. and
         work laSks described in their respective implementation plans. investment justifications, area.
         str,ltcgies, and fuDded project descriptions.

         Concur. While performance checks of UASIs are conducted every year by DHS and Texas
         OPHLSISAA Monitors, Tcxas is taking additional steps in enhancing the performaoce
         improvement process by assigning (I) a senior HLS planner to eac:h of the six DPS regions
         (which include 24 COGs and 5 UASls) and two for the 34 sUlte agencies. and (2) a state lead for
         each of the 37 items on the Target Capabilities List (TCL). aligning those items and leads with
         already existing homeland security-related councils and commitlees.

         This will provide the leadership, oversight and assistance required to periodically assess and
         improve performance state-wide. In addition, the SAA has becn realigncd undcr tile Office of
         HOlIlCland Security (OHLS) and will foml thc basis for a reorganized and expanded HLS
         directorate to assist in enhancing the homeland security posture of the State while serving as a
         model for the n~tion in collaborativc grants managcmcnt and faithful stcwardship of taxpayer
         resources.

         Recnmmendlltion #5: Expand the scope of monitoring (including on-site monitoring) to include
         assessmcnts of key progr<lm performance and progress issues and the identification of potential
         best practices that may warrant communicating to other sub grantees,

         Concur. OHLSISAA will establish performance standards to be monitored and include thcmlO
         sUD-~ipient agreements (SRA) (authority to monitor). OHL.S!SAA Audit & Compliance wi11
         then e)[pand the .scope of on-site monitoring to include programmatic issues. OHLSISAA Audit
         & Compliance began sharing best practices among jurisdictions in July of 2010. In addition.




              The State of Texas’ Management of State Homeland Security Program and 
 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                                     Page 42
 
 

Appendix C
State of Texas Management Comments to the Draft Report




        Texas VASls already idelllify and share best practices through the quarterly VASI Council
        meetings, hosted by OHLSfSAA, and the Texas UASI Peer-to-Peer Planning Network.

        RecommendatiOil #6: Develop and implement procedures, with appropriate controls (such as
        deadlines), to ensure that sub grantees draw down funds in a timely manner.

        Concur. To maximire the productivity of grant funds, Texas will revise the timeline for grant
        expenditures, narrowing the window for COG/UASlfState agency expenditure,~ to give the State
        an opportunity to sweep unspent funds and reallocate them, in accordance with the State
        homeland security strategic plan, to other, high-priorily gaps and unmct nceds throughout the
        State, These changes will be incorporated into a soon-to-be-published policies & procedures
        guide for state-wide use, as well as continued allowances, as necessary, for certain large projects,
        such as radio systems upgrades, which may require more time due to the requirements of
        planning, contract negotiations, and actual build-out of equipmelll,

        Recommendation #7: Coordinate with the Councils of Government in determining the
        numbers, types, and locations of special response teams needed in the State in comparison to the
        numbers, types and locations of existing special response teams.

        I~ecommendation #fl: Provide guidance and direction to special response teams concerning
        standardi711tion of equipment, training, exercise, and revalidation needs; including the possible
        use of independelll subjcct matter experts to assess special response team capability and
        readiness.

        Recommendation #9: Establish a procedure to assess that strategically positioned special
        response teams are equipped, trained, exercised, and validated.

        Concur. [n the next update to the Texas Homeland Security Strategic Plan, the OHLS will
        address this recommendation and designate a State lead to oversee how special response learns
        are established, positioned, equipped, trained, exercised and validated.

        In the meantime, be advised that Slate and fcderal policies and procedures are already in place to
        support the standardization of equipment. training, exercises and revalidation of various special
        response teams, such as;

               (I) FEMA Resource Typing guidance;
               (2) National Fire Protection Association·s (NFPA) 472 Standards for Competence of
                   Responders to Ha:r.ardous MaterialsIWeapons of Mass Destruction Incidents, 2008
                   Edition, adopted by the Texas Commission on Fire Protection (TCFP)
               (3) National Tactical Officcrs Association SWAT Standards, supplcmentl,.'d by the Tcxas
                   Tactical Police Officers Association's SWAT Best Practices publication
               (4) National Guidelines for Bomb Technicians, rej!;ularly updated by the FBI
               (5) National Stmtegic Plan for U.S. Bomb Squads, annually updated by the National
                   Bomb Squad Commanders Advisory Board.


                                               ..,.....0PP0fl1tNTY ...... 0Ym
                                              cou'''uv .1;l;""""" , PAOTIiCTOON




              The State of Texas’ Management of State Homeland Security Program and 
 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                                         Page 43
 
 

Appendix C
State of Texas Management Comments to the Draft Report




         In addition, annual U requests generally reference specifIC changes in guidelines or best practices
         to justify proposed purehases of equipment. training or exercises.

         Rerommendation'IO: Ensure that Stale Agent:y project proposals an: evaluated using the
         State's established review and approval process.

         Rerommendation'll: Complete the process to entet" CUm"nt and future Slate Agency projects
         into the Stale Prepan.:docss Assessment and Reporting Sefvice.

         Concur, Prior-year State agency grants are cunenlly being closed out and, due to financial
         tracking requirements, it is not practical to enter" current State projects into SPARS. All 2010
         and future State projects will be entered into SPARS and tracked using that system. OHL.SISAA
         has opened a competitive call for State agency projects, which will be reviewed, prioritized and
         awarded by the Texas Homeland Security Council based on the TeL. risk assessment
         framewoclr:, and how well they address the goals and objectives of the State HLS SU'ategic Plan.

         This methodology is already uDder development and will be introduced to the COGs, UASls and
         State agcndes in December 2010. with initial implementation for grants }ocar 2011. In addition,
         as part of !heir quarterly reporting, COOs, UASls and Stale agencies will be required to
         demonstrate how they use this methodology for allocating homeland security funds to local
         jurisdictions. This methodology is based upon the State Pn.-pan:dncss Report (SPR), being
         tailored to specific needs of urban and rural areas, and is designed to prom()(e equity,
         transparency, and the use of common tools and assessment approaches.

         Although the SPR relies on self-reporting, monitoring processes are also being developed to
         ensure accuracy of and compliance with what is being reponed. Annual reviews eentric to the
         allocation of grants funds. based on the developed methodology, will be conducted in the first
         quarter of each subsequent calendar year, beginning in calendar year 2012 (allocations of gr,l.Ot
         funding from COGs to local jurisdictions).

         Recommendation #13:         Enforce the property management requirements for equipment
         purchased with federal funds in individual sub grantee contracts.

         Recommendation #14: Require sub grantee~ that arc not in compliance to providc a plan to the
         State to become compliant within a specified timeframc.

         Recommendation#IS          Include verification of compliance wilh property management
         requirements during on-site monitoring visits to sub grantClllocmions,

         Com:ur. Texas will rcaffirm and enforce the property management requirements for equipment
         purchased with federal funds in individual sub grantee contracts. Verification of compliance
         with
         property management requirements will be accomplished during on-site monitoring visits to sub
         grantee locations. Jurisdictions/agencies found not 10 be in compliance will be required to
         provide a plan to the State to become compliant within 30 days of the finding,




              The State of Texas’ Management of State Homeland Security Program and 
 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                                     Page 44
 
 

Appendix C
State of Texas Management Comments to the Draft Report




         Please let us KnoW if you require I1lO£e information on any of the issues idenlirled in the report.
         Again, we welcome your feedback,


         Sincerely.




         Robert J, Bodisch
         Deputy Director. Texas Homeland security

         cc: Mr, Marty O'Neill, Fou: & Company




              The State of Texas’ Management of State Homeland Security Program and 
 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                                     Page 45
 
 

Appendix D
Organization Chart

                         Texas Department of Public Safety 
 

                               Organizational Chart 
 





               The State of Texas’ Management of State Homeland Security Program and 
 

         Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                                Page 46
 
 

Appendix E
Report Distribution


                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs

                       Federal Emergency Management Agency

                       Administrator
                       Assistant Administrator, Grant Programs Directorate
                       Federal Emergency Management Agency Audit Liaison
                       Grant Programs Directorate Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




              The State of Texas’ Management of State Homeland Security Program and 
 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 
 


                                               Page 47
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
